•

Certification of Word Count
No.

In the

^npxzmz (Enurt of

z

J^taips

Kevin K. Tung, on behalf of himself and all others
SIMILARLY SITUATED, PETITIONER
V.

Superior Court of New Jersey; Stuart Rabner,
CHIEF JUSTICE OF THE SUPREME COURT OF NEW JERSEY;
Glenn A. Grant, acting administrative director of
THE NEW JERSEY COURTS; CARMEN MESSANO, PRESIDING
JUDGE FOR ADMINISTRATION FOR THE APPELLATE
division; John/Jane Doe, administrators of the new
JERSEY SUPERIOR COURT
PETITION FOR WRIT OF CERTIORARI

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 7304 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 10/6/2021

Rod Curry
Curry & Taylor
1726 Nevada Ave NE
St. Petersburg, FL 33703
(202) 350-9073

t

